Audit Report




OIG-08-040
CAPITAL INVESTMENTS: Treasury Foreign Intelligence Network
Project Experienced Delays and Project Management
Weaknesses
July 25, 2008




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 1

    Background ................................................................................................ 2

    Findings and Recommendations .................................................................... 4

        TFIN Modernization Segment 2B Missed its Target Completion Date ............. 4
        Recommendation .................................................................................... 5

        Documentation for the TFIN Project Was Inadequate................................... 6
        Recommendations................................................................................... 10

        Written Justification for Sole Source TFIN Contract Did Not
        Conform With FAR Requirements.............................................................. 11
        Recommendation .................................................................................... 13

Appendices

    Appendix     1:     Objectives, Scope, and Methodology ......................................             15
    Appendix     2:     Management Comments........................................................           17
    Appendix     3:     Major Contributors................................................................    25
    Appendix     4:     Report Distribution................................................................   26

Tables

    Table 1:            TFIN Phases/Segments and Deliverables .................................. 3
    Table 2:            FAR 6.303-2(a) Requirements ................................................ 11

Abbreviations

    CIO                 Chief Information Officer
    FAR                 Federal Acquisition Regulation
    OCIO                Office of Chief Information Officer
    OIA                 Office of Intelligence and Analysis
    OIG                 Office of Inspector General
    OMB                 Office of Management and Budget
    TFIN                Treasury Foreign Intelligence Network



                        TFIN Stabilization and Modernization Project Experienced Delays                    Page i
                        and Project Management Weaknesses (OIG-08-40)
           This Page Intentionally Left Blank.




TFIN Stabilization and Modernization Project Experienced Delays   Page ii
and Project Management Weaknesses (OIG-08-40)
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                  July 25, 2008

                  Janice B. Gardner
                  Assistant Secretary for Intelligence and Analysis

                  Michael D. Duffy
                  Deputy Assistant Secretary for Information Systems and
                    Chief Information Officer

                  Thomas Sharpe
                  Senior Procurement Executive

                  This report presents the results of our audit of the Treasury Foreign
                  Intelligence Network (TFIN) stabilization and modernization project.
                  The Department of the Treasury initiated the project to stabilize the
                  TFIN system and upgrade its intelligence and analytical applications
                  for use by the Office of Intelligence and Analysis (OIA). Our audit
                  objectives were to determine whether (1) sound project
                  management principles were followed in executing the project,
                  (2) procurement requirements were adhered to in the acquisition of
                  contract support, and (3) the business case for the project was
                  based on appropriate and supportable assumptions. As part of our
                  work, we reviewed project milestones to determine if the work was
                  progressing on schedule. We performed our fieldwork from
                  November 2006 through March 2008. Appendix 1 contains a more
                  detailed description of our objectives, scope, and methodology.

                  In brief, we found that although Treasury did not meet the planned
                  September 30, 2007, timeline for completing segment 2B of the
                  TFIN modernization project – enhanced analyst tool set – the work
                  was progressing. The estimated completion date for segment 2B
                  was pushed back several times and as of the end of our fieldwork
                  in March 2008, no date had been established for the completion of

                  TFIN Stabilization and Modernization Project Experienced Delays       Page 1
                  and Project Management Weaknesses (OIG-08-40)
             this segment. Our discussions with the Assistant Secretary for
             Intelligence and Analysis – the TFIN business owner, the Treasury
             Chief Information Officer (CIO), and TFIN pilot program users
             indicated that barring any unforeseen complications, the revamped
             system was expected to provide the necessary applications for OIA
             to accomplish its work and mission. As a subsequent event, in a
             memorandum dated May 21, 2008, the Assistant Secretary and
             the CIO informed us that segment 2B was completed and deployed
             on April 17, 2008. Additionally, analysts have been trained and
             have begun using the system.

             We also found that documentation for the project was inadequate
             to demonstrate sound project management principles were
             followed, and for one TFIN-related contract in the amount of
             $440,000, Treasury did not conform to the Federal Acquisition
             Regulation (FAR) sole source justification requirements.

             We are making four recommendations in this report. In a written
             response received by us on July 3, 2008, management generally
             concurred with the recommendations and provided comments for
             certain matters discussed in the report. Management’s corrective
             actions and other comments are summarized in the Findings and
             Recommendations section and the complete response is provided
             as appendix 2.

Background
             The purpose of TFIN is to help Treasury analysts and others
             provide meaningful intelligence to senior Treasury management and
             to other agencies within the intelligence community. TFIN users
             include analysts, watch officers, requirements officers, security
             officers, and system administrators. Users conduct activities over
             the TFIN system to meet the requirements of executive orders,
             laws, policies, and regulations. TFIN was originally designed to
             accommodate approximately 30 users. However, because of
             Treasury’s expanding role in the fight against terrorism, the number
             of TFIN users has risen significantly. As of February 2008, TFIN
             had approximately 130 users.




             TFIN Stabilization and Modernization Project Experienced Delays   Page 2
             and Project Management Weaknesses (OIG-08-40)
At the time the TFIN project was initiated in October 2004, the
TFIN environment was unstable and hampered the abilities of
Treasury to meet its mission goals. TFIN was using antiquated
hardware and software which needed replacing. The TFIN system
upgrade was intended to accommodate additional users and
enhance its security and stability. A network redesign was also
needed to enable TFIN to take advantage of new technologies and
capabilities and improve Treasury’s ability to exchange information
with others in the intelligence community.

To allow TFIN users to efficiently identify messages with relevant
content, the TFIN project needed to address the labor-intensive,
manual process for locating and manipulating data; enhance the
limited tool sets available to analysts; improve the quality of
service; and increase collaboration capabilities. The TFIN
stabilization and modernization process is expected to resolve these
concerns.

The revamping of the TFIN system was divided into a two-phased
approach with the work performed by different contractors. Phase
2 was further subdivided into several segments for the
modernization initiative. Table 1 lists the various project phases
and segments.

Table 1: TFIN Phases/Segments and Deliverables
 Phases/Segments                         Deliverables

 1                    Stabilization of the TFIN System
 2                    Modernization of the TFIN System
      2A              Analyst Tool Set – Initial Operating Capability
      2B              Enhanced Analyst Tool Set
      2C              Interface Upgrade – Defense Messaging System
      2D              Continuity of Operations/Redundant Equipment Suite and
                      Services Site Installation
      2E              Continuity of Operations/Redundant Equipment Suite and
                      Services Site – Final Operating Capability
     2F               Analyst Growth and Refresh
 Operations and       Program Support
 Maintenance          Integration Support
Source: Treasury records




TFIN Stabilization and Modernization Project Experienced Delays          Page 3
and Project Management Weaknesses (OIG-08-40)
            When the decision was made in 2004 to stabilize and modernize
            TFIN, there were no appropriated funds for the project. To begin
            the project, the Treasury Executive Office for Asset Forfeiture and
            the Working Capital Fund provided the financial resources. In 2006,
            Treasury received funds from the Department-wide Systems and
            Capital Investments Program, the Treasury Executive Office for
            Asset Forfeiture, the Counterterrorism Fund, and direct
            appropriations. The original schedule specified September 2009 as
            the completion date for all phases.

            In 2006, Treasury and the Office of Management and Budget
            (OMB) agreed on an accelerated funding schedule. This resulted in
            a 2007 budget request for sufficient funding to complete the
            modernization phase in the second quarter of fiscal year 2008.
            Treasury’s fiscal year 2007 appropriation included the requested
            funding for the TFIN project. The total funding for the project was
            approximately $37 million. As of September 2007, obligated funds
            totaled approximately $30 million.


Findings and Recommendations
Finding 1   TFIN Modernization Segment 2B Missed Its Target
            Completion Date

            The TFIN stabilization segment was completed in April 2006, and
            segment 2A of the modernization phase was completed in
            December 2006. Segment 2B, the enhanced analyst tool set, was
            originally estimated to be completed by September 2007. This date
            was not met and as of the end of our fieldwork on March 17,
            2008, a new date had not been established.

            During our fieldwork, Treasury personnel, including the Assistant
            Secretary for Intelligence and Analysis and the Treasury CIO,
            informed us that the system was experiencing technical difficulties.
            Treasury asked contractors to address this matter. The Assistant
            Secretary stated that she wanted a 1- week problem-free period
            before she considered segment 2B to be successfully completed
            and the system ready to be rolled out to all users. The Assistant
            Secretary and the Treasury CIO worked closely to review the
            status of the system on an ongoing basis.

            TFIN Stabilization and Modernization Project Experienced Delays   Page 4
            and Project Management Weaknesses (OIG-08-40)
To test the functionality of segment 2B, a multi-disciplinary team
of analysts was assembled to pilot the new tool set. We asked for
a written plan for this pilot, but were told by the Office of the CIO
(OCIO) and OIA personnel that such a document did not exist. We
asked for and received a list of 12 OIA analysts assigned to the
pilot. We interviewed 6 of these analysts, the Treasury CIO, and
the Assistant Secretary. According to the TFIN pilot program users,
the system was performing effectively, was providing users with
information and access to information necessary to perform their
jobs, and was generally an improvement over the previously used
system. One user, however, did note that he was satisfied with the
previously existing tools. We were given conflicting information as
to when the pilot was started. According to OIA and OCIO
officials, the pilot program began in December 2007; some of the
users stated that they had been piloting the new program for a
longer period which extended from 1 to 2 years.

As a subsequent event, we received a memorandum dated
May 21, 2008, from the Assistant Secretary and the CIO who
reported that segment 2B was deployed on April 17, 2008.
According to the memorandum, with the completion of this
segment, TFIN provides enhanced workflow capabilities enabling
Treasury analysts to quickly produce actionable intelligence
products for Treasury and other intelligence community members.
Additionally, analysts have been trained and have begun using the
system.

Recommendation

We recommend that the Assistant Secretary for Intelligence and
Analysis and the Treasury CIO continue working toward a
successful completion of the remaining segments of the TFIN
modernization project.

Management Response

Management noted that since the inception of the TFIN
modernization effort, OCIO has worked closely with OIA to develop
and deploy TFIN system improvements. OCIO will continue to


TFIN Stabilization and Modernization Project Experienced Delays   Page 5
and Project Management Weaknesses (OIG-08-40)
                        collaborate with OIA and work towards a successful completion of
                        all remaining segments of TFIN.

                        With respect to the pilot program, OCIO employed a practice of
                        testing the TFIN software using an independent group of testers as
                        segments of ASSET1 functionality was developed but before
                        ASSET was deployed to a broader user base. Originally, TFIN
                        software developers worked with one individual in OIA as the user
                        representative. After the initial delivery of TFIN in December 2006,
                        OCIO and OIA management agreed to expand the user group to
                        include users from each OIA analytical “office” to participate in the
                        subsequent iterative development of the application.

                        OIG Comment

                        Management’s planned action is responsive to the intent of our
                        recommendation.

Finding 2               Documentation for the TFIN Project Was Inadequate

                        It was unclear whether sound project management principles were
                        followed for the TFIN project because the documentation needed to
                        make such a determination was either not provided or was lacking
                        in substance.

                        Treasury assigns responsibilities for the use of an information
                        system life cycle management methodology to develop, acquire,
                        and maintain information systems in Treasury Directive 84-01,
                        Information System Life Cycle. The Treasury Directive also
                        authorized the issuance of the Information System Life Cycle
                        Manual, which contains the methodology.2 The manual provides
                        Treasury bureau project managers charged with developing
                        systems with standardized modules, methodologies, and guidelines
                        for implementing a structured and consistent approach to
                        information technology project development. The manual requires
                        bureaus and offices without standardized methodologies to utilize
                        the manual for the management of their systems’ life cycles. The
                        manual divides the process into six phases consisting of the
1
    ASSET is the analyst tool set developed during Segment 2A and enhanced during Segment 2B.
2
    The manual was issued as Treasury Department Publication 84-01.

                        TFIN Stabilization and Modernization Project Experienced Delays         Page 6
                        and Project Management Weaknesses (OIG-08-40)
                        requirements identification and analysis, project planning,
                        development and testing, implementation, operation, and
                        termination/disposition. The first two areas, requirements
                        identification and analysis and the project planning phases include
                        many preparatory activities expected to be associated with the
                        initiation of a major information technology project such as
                        performing a needs analysis and developing a business case. Also,
                        the manual contains an information system life cycle model and
                        appendices with information for developing a project plan, a
                        planning checklist, and a planning review template.

                        According to A Guide to the Project Management Body of
                        Knowledge, project planning processes should include scope
                        planning, scope definition, risk management planning, activity
                        definition, activity sequencing, activity duration estimating,
                        schedule development, resource planning, cost estimating, cost
                        budgeting, project plan development, quality planning,
                        organizational planning, staff acquisition, procurement planning,
                        solicitation planning, communications planning, risk identification,
                        qualitative risk analysis, quantitative risk analysis, and risk
                        response planning.3

                        To determine whether sound program management principles were
                        followed in executing the TFIN project, we sought to review project
                        planning documents and information supporting the various project
                        tasks. However, when we requested such documentation, it was
                        either not provided or was inadequate. Several examples follow.

                        Planning phase. When we requested planning documents, we
                        received several e-mails between a former Treasury CIO and the
                        Assistant Secretary for Intelligence and Analysis. The e-mails did
                        not describe Treasury planning efforts. Rather, they addressed
                        specific activities to be performed and meetings to be held by
                        project contractors who had already been selected for the project.
                        There was little indication that OCIO had established or
                        implemented any formal process to determine the work needed to
                        correct the system’s deficiencies, funding to get the work done, or
                        any procurement efforts to get the work performed. The project


3
    Project Management Institute, A Guide to the Project Management Body of Knowledge (2000 Edition).

                        TFIN Stabilization and Modernization Project Experienced Delays        Page 7
                        and Project Management Weaknesses (OIG-08-40)
was undertaken, temporary funding was secured, and contracts
were let with little documentation of planning.

We also looked at the Treasury budget justification from 2004
forward for planning information. The first budget year when
substantive information was available was the 2007 budget
request. In the request, Treasury identified that the project was its
top priority and the stabilization and modernization was critical to
Treasury’s expanding financial intelligence and national security
missions. The request also stated that the project was necessary to
address the existing system’s stability, ensure adequate cyber
security capabilities, and bring the operating system and related
security measures into line with the rest of the intelligence
community.

While we do not question the need for the project, we were
unable, due to the limited availability of planning documentation, to
evaluate how Treasury determined that its approach provided the
best method to stabilize or modernize the system or that the
selected contractors were the best sources for the required
services.

Delays during stabilization and modernization phases. The program
manager told us that OCIO encountered problems obtaining
clearances for some of the contractors, thereby delaying the
contractors from gaining access to perform their work. We
discussed this issue with OCIO management and OIA’s Special
Security Officer who was responsible for verifying information
necessary for the proper clearances. According to the Special
Security Officer, OCIO generally placed its requests at the last
minute which did not allow sufficient time for processing to permit
contractors’ access on the requested dates. The program manager
told us that there was no documentation supporting the dates the
requests for clearances were made or any correspondence between
OCIO and OIA concerning the clearances. In addition, despite the
importance of contractor access to begin work, there was no
documentation of any efforts to resolve clearance issues with OIA.
In the absence of documentation, we were unable to determine
who was responsible for the delays in obtaining the clearances and
the ultimate cost of the delays.


TFIN Stabilization and Modernization Project Experienced Delays   Page 8
and Project Management Weaknesses (OIG-08-40)
Other delays. Several examples of differences between OCIO and
contracting personnel were cited as having caused delays in
various phases of the TFIN project, but these issues were not
documented by OCIO. According to one contractor, Treasury did
not

•   procure equipment for design and integration,
•   implement connectivity as requested,
•   provide service maintenance agreements,
•   provide adequate power and air conditioning for the stabilization
    efforts, or
•   provide adequate facilities or alternative sites.

The program manager did not dispute these events; however, he
was unable to provide any documentation of OCIO
acknowledgement of the problems or efforts to remedy the
situations. Because of the lack of documentation, we were unable
to determine what problems, if any, the delays caused from a cost
perspective.

Pilot program. As discussed in our first finding, the segment 2B
pilot program was initiated and operated without a written
implementation plan indicating specifics such as the work to be
done, time frames, milestones, decision points, resource
allocations, or training. When we interviewed the TFIN pilot users,
some of them informed us that they were involved with the pilot
program for over a year. In an e-mail from the program manager
identifying the TFIN pilot users, he listed several users who were
with the pilot program from its inception, including one that left the
program in September 2007. Additionally, no specific objectives for
the pilot program were noted. The program manager also informed
us that there was no formal evaluation process to determine the
efficiency and effectiveness of the new system other than the
users informing the development team of any problems or
concerns.

For future information technology projects, key decisions and
events need to be documented. Such documentation can help
management address the causes of schedule slippages and other
system development issues that may arise.


TFIN Stabilization and Modernization Project Experienced Delays   Page 9
and Project Management Weaknesses (OIG-08-40)
Recommendations

We recommend that the Treasury CIO do the following:

1. Work with business owners to ensure that planning efforts are
   appropriate and adequately documented at the outset of a major
   investment project.

    Management Response

    Management agreed that, moving forward, OCIO will work
    closely with OIA to effectively coordinate planning, deployment,
    and operational management efforts. Additionally, further focus
    and emphasis have been applied to documenting TFIN
    modernization planning and management activities.

2. Ensure that all key planning and decision documents for major
   IT acquisitions are retained in a manner to be readily available
   for management or external audit review.

    Management Response

    Management responded that the TFIN program management
    office has been directed to implement procedures to ensure that
    all necessary documentation is developed timely as the project
    proceeds into subsequent phases.

    The response noted that the Department did have an extensive
    set of documentation related to the planning, development, and
    deployment and provided with its response, a listing of
    documents provided for our review. Management did
    acknowledge that some documentation was absent.

    With respect to possible delays caused by security clearance
    processing, the response noted that contrary to contractual
    requirements, contractor personnel assigned to the TFIN project
    did not possess valid background investigations and had other
    clearance-related issued that required additional processing time
    for the contractor to resolve. According to management,


TFIN Stabilization and Modernization Project Experienced Delays   Page 10
and Project Management Weaknesses (OIG-08-40)
                           contractors were actually cleared for the project more quickly
                           than the industry standard.

                       OIG Comment

                       Regarding these two recommendations, management is responsive
                       as they apply to TFIN. Management should ensure that these
                       actions are taken for all major acquisitions, not just TFIN.

Finding 3              Written Justification for Sole Source TFIN Contract Did
                       Not Conform With FAR Requirements

                       During our review of the TFIN contract files, we noted that the
                       memorandum to justify the use of a particular contractor for a
                       $440,000 contract to complete the certification and accreditation
                       work on the TFIN project did not contain 10 of the 12 items
                       required by FAR for contracting without full and open competition.4
                       FAR Part 6 addresses competition requirements for federal
                       contracting. Subpart 6.3 prescribes policies and procedures, and
                       identifies the statutory authorities, for contracting without
                       providing for full and open competition. Subpart 6.303-2(a) lists 12
                       specific information items that must be included in justifications
                       written to support the use of these authorities. These required
                       items are shown in table 2, along with our assessment of whether
                       each was present in the justification.

                       Table 2: FAR 6.303-2(a) Requirements
                                                                                         Documented
                        Requirement                                                      in justification
                        Identification of the agency, contracting activity, and           No
                        specific identification of the document as a "Justification
                        for other than full and open competition"
                        Nature and/or description of the action                          Yes

4
  Funding for the contract was divided between the TFIN project and the Treasury Secure Data Network
project. The Treasury Secure Data Network system is another Treasury intelligence system.
Certification is a process whereby a comprehensive evaluation of the technical and nontechnical
security features of an information technology system and other safeguards meets a set of specified
security requirements. Accreditation is a formal declaration that an information technology system is
approved to operate in a particular security mode using a prescribed set of safeguards at an acceptable
level of risk. The entire information system is evaluated when a certification and accreditation is
performed.


                       TFIN Stabilization and Modernization Project Experienced Delays                Page 11
                       and Project Management Weaknesses (OIG-08-40)
                                                                                         Documented
                        Requirement                                                      in justification
                        Description of supplies or services required (including the      Yes
                        estimated value)
                        Identification of the law permitting other than full and         No
                        open competition
                        Demonstration that the proposed contractor's unique              No
                        qualifications or the nature of the acquisition requires use
                        of this law
                        Description of efforts made to ensure that offers are            No
                        solicited from as many potential sources as practicable
                        Determination that the anticipated cost to the federal           No
                        government will be fair and reasonable
                        Description of the market research conducted with results        No
                        or the reason market research was not conducted
                        Other facts supporting the use of other than full and open       No
                        competition
                        List of the sources that expressed an interest in the            No
                        acquisition
                        Statement of any actions the agency may take to remove           No
                        or overcome any barriers to competition before any
                        subsequent acquisition for the supplies or services are
                        required
                        Contracting officer certification that the justification is      No
                        accurate and complete
                       Source: OIG analysis of the FAR.


                       Other omissions included non-conformance of FAR Subpart 6.304
                       which requires the signature of the approving authority on a
                       justification for other than full and open competition. The
                       justification in the contract file was not signed. Also, OCIO should
                       have provided two other required documents that were not in the
                       file – a statement of work and the justification for the requisition.

                       According to the Director of Treasury’s Procurement Services
                       Division, the justification may have been written by a contracting
                       officer who subsequently retired. There was no way to determine
                       with certainty who authored the document since it was not
                       signed.5 The justification was brief and only addressed the
                       nature/description of the action being approved and the description
                       of the services required to meet the agency’s needs, including an

5
 FAR 6.304 requires the signature of the approving authority on a justification for other than full and
open competition.

                       TFIN Stabilization and Modernization Project Experienced Delays                Page 12
                       and Project Management Weaknesses (OIG-08-40)
estimated value of the work to be performed. The other 10
elements were not addressed.

The contract file contained a statement indicating that personnel in
the Departmental Offices determined that the selected contractor
should perform the work “to provide continuity of service for these
critical functions.” We believe that the reasoning for the
justification was weak due to the omission of 10 critical factors
required by the FAR.

The Director of the Procurement Services Division told us that
since this was a new task, continuity of service was not a
supportable rationale, and there was no reason why the contract
should have been awarded without competition.

Because of the lack of documentation, we could not determine if
Treasury received the best value for this contract.

Recommendation

We recommend that the Senior Procurement Executive ensure that
contracting officers are reminded to properly justify and document
procurements that are made on a basis other than full and open
competition in accordance with the Federal Acquisition Regulation.

Management Response

Management responded that internal policy is being developed to
require the cognizant branch chiefs (or other designated officials) to
review and approve sole source contracts prior to award. Revised
contract checklists are being included in contract files to facilitate
documentation and compliance with applicable FAR and
Department of Treasury Acquisition Regulation requirements. Also,
all Procurement Services Division personnel are required to attend
training on various courses, including source selection procedures.
Furthermore, the Senior Procurement Executive will remind all
bureau chief procurement officers of their accountability to ensure
all Treasury contracting officers follow and comply with FAR and
the Department of Treasury Acquisition Regulation procedures
regarding sole source contract actions.


TFIN Stabilization and Modernization Project Experienced Delays   Page 13
and Project Management Weaknesses (OIG-08-40)
OIG Comment

Management’s planned actions, if implemented as described, are
responsive to the intent of our recommendation. Management will
need to establish an expected implementation date for its planned
actions for recording in the Department’s Joint Audit Management
Enterprise System.


                                   ******


I would like to extend my appreciation for the cooperation and
courtesies extended to my staff during the review. If you have any
questions, please contact me at (202) 927-5400 or Michael J.
Maloney, Director, at (202) 927-6512.




Marla A. Freedman
Assistant Inspector General for Audit




TFIN Stabilization and Modernization Project Experienced Delays   Page 14
and Project Management Weaknesses (OIG-08-40)
Appendix 1
Objectives, Scope, and Methodology




Our audit, which was included in the Office of Inspector General’s
(OIG) Annual Plan for Fiscal Year 2007, had the following
objectives:

1. To determine if sound program management principles were
   followed in executing the project.
2. To determine if procurement requirements were adhered to in
   the acquisition of contract support.
3. To determine if the business case for the project was based on
   appropriate and supportable assumptions.

To accomplish these objectives, we performed the following
functions:

1. We reviewed applicable policies, circulars, directives, and other
   materials, including
   • A Guide to the Project Management Body of Knowledge;
   • Office of Management and Budget Memorandum 04-19, IT
     Project Manager Qualification Guidance;
   • OMB Circular A-11, Preparation, Submission, and Execution
     of the Budget;
   • Office of the Procurement Executive Bulletin No. 06-04R1,
     High Impact Acquisitions and Contract Management
     Reviews;
   • Federal Enterprise Architecture Consolidated Reference
     Document v2.1;
   • Federal Acquisition Regulation;
   • Treasury Directive 84-01, Information System Life Cycle;
     and
   • Treasury Department Publication 84-01.

2. We interviewed individuals from the Office of Intelligence and
   Analysis, including the Assistant Secretary, the Office of the
   Chief Information Officer, including the CIO, and the
   Procurement Services Division, including the Senior
   Procurement Executive.

3. We interviewed the contractors that performed work on the
   stabilization and modernization phases of the TFIN project.



TFIN Stabilization and Modernization Project Experienced Delays   Page 15
and Project Management Weaknesses (OIG-08-40)
Appendix 1
Objectives, Scope, and Methodology




4. We reviewed project documentation provided by OCIO and the
   Procurement Services Division.

5. We interviewed users selected for the TFIN pilot program that
   used the modernized system during phase 2 of the project.

We performed our fieldwork at the Office of the Chief Information
Officer, the Office of Intelligence and Analysis, and the
Procurement Services Division in Washington, D.C., from
November 2006 through March 2008. We conducted this
performance audit in accordance with generally accepted
government auditing standards.




TFIN Stabilization and Modernization Project Experienced Delays   Page 16
and Project Management Weaknesses (OIG-08-40)
                     Appendix 2
                     Management Comments




Signatures
removed.




This text now
appears on page 5.




                     TFIN Stabilization and Modernization Project Experienced Delays   Page 17
                     and Project Management Weaknesses (OIG-08-40)
                     Appendix 2
                     Management Comments




This text now
appears on page 8.




                     TFIN Stabilization and Modernization Project Experienced Delays   Page 18
                     and Project Management Weaknesses (OIG-08-40)
Appendix 2
Management Comments




TFIN Stabilization and Modernization Project Experienced Delays   Page 19
and Project Management Weaknesses (OIG-08-40)
Appendix 2
Management Comments




TFIN Stabilization and Modernization Project Experienced Delays   Page 20
and Project Management Weaknesses (OIG-08-40)
Appendix 2
Management Comments




TFIN Stabilization and Modernization Project Experienced Delays   Page 21
and Project Management Weaknesses (OIG-08-40)
Appendix 2
Management Comments




TFIN Stabilization and Modernization Project Experienced Delays   Page 22
and Project Management Weaknesses (OIG-08-40)
Appendix 2
Management Comments




TFIN Stabilization and Modernization Project Experienced Delays   Page 23
and Project Management Weaknesses (OIG-08-40)
Appendix 2
Management Comments




TFIN Stabilization and Modernization Project Experienced Delays   Page 24
and Project Management Weaknesses (OIG-08-40)
Appendix 3
Major Contributors




Michael J. Maloney, Director, Fiscal Service Audit
Leslye K. Burgess, Audit Manager
Andras O. Schneider, Auditor
Jaideep Mathai, Referencer




TFIN Stabilization and Modernization Project Experienced Delays   Page 25
and Project Management Weaknesses (OIG-08-40)
Appendix 4
Report Distribution




Department of the Treasury

Under Secretary for Terrorism and Financial Intelligence
Assistant Secretary for Intelligence and Analysis
Assistant Secretary for Management and Chief Financial Officer
Deputy Assistant Secretary for Information Systems and Chief
    Information Officer
Senior Procurement Executive Officer
Office of Accounting and Internal Control
Office of Strategic Planning and Performance Management

Office of Management and Budget

Office of Inspector General Budget Examiner




TFIN Stabilization and Modernization Project Experienced Delays   Page 26
and Project Management Weaknesses (OIG-08-40)
